U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

April 6, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Angelica Castanon, et al. v. United States of America, et al,
S.Ct. No. 20-1279

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December
22, 2020, and placed on the docket on March 15, 2021. The government’s response is due on
April 14, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 14, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1279
CASTAÑON, ANGELICA, ET AL.
USA, ET AL.

BILL STEIN
HUGHES HUBBARD & REED LLP
1775 I STREET, N.W.
6TH FLOOR
WASHINGTON, DC 20006-2401
202-721-4650
WILLIAM.STEIN@HUGHESHUBBARD.COM
CATHERINE E. STETSON
HOGAN LOVELLS US LLP
COLUMBIA SQUARE
555 THIRTEENTH STREET, NW
WASHINGTON, DC 20004
202-637-5491
CATE.STETSON@HOGANLOVELLS.COM
CHRISTOPHER J. WRIGHT
HARRIS,WILTSHIRE & GRANNIS LLP
1919 M STREET, NW
EIGHTH FLOOR
WASHINGTON, DC 20036
202-730-1300
CWRIGHT@HWGLAW.COM

